CERTIFICATE OF COMPLIANCE
Donald Henderson Scott; Carolyn Yvonne Scott;
Petitioners
v.
U.S. Bank National Association as Trustee, for Bayview Financial Mortgage PassThrough Certificates, Series 2005; M&T Bank; Bayview Loan Servicing LLC; David
L. Bowan Southlaw, P.C.; Rob Clifton; Anderson Law, LLC; Mortgage Electronic
Registration Systems, Inc.; Mila Homes, LLC; Corinthian Mortgage Corporation;
Security Land Title Company;
Respondents
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 1939 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 17th day of January 2020.

onald H. Scott
PO Box 901284
Kansas City, MO 64190

